                                                     u.s. OFFICE OF PERSONNEL MANAGEMENT
                                                                OFFICE OF THE INSPECTOR GENERAL
                                                                                 OFFICE OF AUDITS




                                   Final Audit Report

Subject:




   AUDIT OF THE INFORMATION SECURITY

 POSTURE OF THE U.S. OFFICE OF PERSONNEL

     MANAGEMENT'S USAJOBS SYSTEM

                  FY 2012

                                          Report No. 4A-HR-OO-12-037


                                         Date:                   July 26, 2012




                                                          --CAUTION-­
This audit report has been distributed to Federal officials who arc responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (I811.S.C. 1905). Therefore. while this audit report is available
under the Freedom of Information Act and made available to the public on the GIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distrihuted eopy.
                         UNITED STATES OFFICE OF PERSONNEL MANAGEMENT
                                          Washington, DC 20415


  Oftice of the
Inspector General




                                          Audit Report



                            u.s. OFFICE OF PERSONNEL MANAGEMENT

                         AUDIT OF THE INFORMATION SECURITY POSTURE

                        OF THE U.S. OFFICE OF PERSONNEL MANAGEMENT'S

                                         USAJOBS SYSTEM

                                             FY 2012



                                      WASHINGTON, D.C.





                                 Report No. 4A-HR-OO-12-037


                                  Date:           07/26/12




                                                                 :2{/C ~---__
                                                                 Michael R. Esser
                                                                 Assistant Inspector General
                                                                   for Audits




        www.op m.g ov                                                                www.u sajob s.g ov
                           UNITED STATES OFFICE OF PERSONNEL MANAGEMENT
                                                Washington, DC 20415


  Office of the
Inspector General




                                          Executive Summary


                              U.S. OFFICE OF PERSONNEL MANAGEMENT


                         AUDIT OF THE INFORMATION SECURITY POSTURE

                        OF THE U.S. OFFICE OF PERSONNEL MANAGEMENT'S

                                         USAJOBS SYSTEM

                                             FY 2012



                                             WASHINGTON, D.C.





                                      Report No. 4A-HR-OO-12-037


                                       Date:           07/26/12



      The goal of FishN et Security, Inc.' s assessment was to thoroughly document the overall security
      posture of USA JOBS through a series of tests, to include:
      •     Network architecture review;
      •     Internal vulnerability assessment including server and database configuration review;
      •     External vulnerability and web application assessment;
      •     Source code review; and
      •     Mobile application security assessment.

      Overall, USAJOBS was found to be in good security standing and does not appear to pose any
      significant risk to OPM or its constituents. There were no critical vulnerabilities discovered
      during the multi-discipline assessment that required immediate escalation. Additionally, the
      large majority of issues found from each assessment phase were of the medium to
      lowlinformational severity ranking. Low-severity rated vulnerabilities comprised nearly half of
      the adverse findings.




          www.opm.gov                                                                         www.usajobs.gov
FishNet and the OIG believe that there is clear intent by OPM to ensure the confidentiality,
integrity, and availability of the USAJOBS environment. Throughout the testing it became
obvious that there were some security weaknesses, but nothing that put the USAJOBS
environment at immediate risk. Many of the findings are similar to those found in other
organizations facing similar operational challenges.

However, throughout the testing of the USAJOBS environment some concerns about the design
of the supporting infrastructure were realized. The testers discovered that the domain hosting
USAJOBS is shared with other services and applications hosted by OPM’s Macon data center.

USAJOBS is widely considered the flagship information system at OPM. Any application with
the size, visibility, and public importance of USAJOBS should be operating in a dedicated,
multi-tiered environment, thereby creating a defense-in-depth strategy for protecting the
confidentiality, integrity, and availability of system resources and data.




                                                ii
                                                                 Contents
                                                                                                                                               Page

Executive Summary ......................................................................................................................... i
Introduction and Background ..........................................................................................................1
Objectives ........................................................................................................................................1
Scope and Methodology ..................................................................................................................1
Reporting and Finding Severity .......................................................................................................2
Compliance with Laws and Regulations..........................................................................................3
Results ..............................................................................................................................................4
   Overall Security Assessment Summary .......................................................................................4
   A.      Network Architecture...........................................................................................................5
   B.      Internal Network Assessment ..............................................................................................6
   C.      External Network and Web Application Asessment ...........................................................7
   D.      Source Code Review ............................................................................................................8
   E.      Mobile Application Assessment ..........................................................................................9
Major Contributors to this Report ..................................................................................................11


Appendix: The Office of the Chief Information Officer's June 14, 2012 response to the draft
          audit report, issued May 16, 2012.
                            Introduction and Background
USAJOBS is the Federal Government’s official one-stop source for Federal jobs and
employment information. The USAJOBS website provides public notice of Federal employment
opportunities to Federal employees and United States citizens. USAJOBS is cooperatively
owned by the Federal Chief Human Capital Officer (CHCO) Council.

In 2003, OPM contracted with Monster Government Services (MGS) to host and maintain the
USAJOBS system. In 2010, OPM and the CHCO Council made the decision to not renew its
contract with MGS and to bring USAJOBS in-house at OPM. One element of this decision was
based on the fact that two separate security breaches at MGS led to the disclosure of sensitive
USAJOBS data.

In October 2011, OPM launched USAJOBS 3.0. This new version of USAJOBS was developed
by various members of the CHCO council with primary contributions from OPM, the
Department of Homeland Security, and the Department of Defense. USAJOBS 3.0 is hosted at
OPM’s data center in Macon, Georgia.

                                          Objectives

The objectives of this audit were to assess the information security controls of USAJOBS and to
evaluate OPM’s overall efforts to protect the sensitive data processed by USAJOBS. These
objectives were met by reviewing the following elements of USAJOBS:

•   Network architecture;
•   Internal vulnerabilities including server and database configurations;
•   External vulnerabilities and web application;
•   Source code; and,
•   Mobile application security.

                                Scope and Methodology

This performance audit was conducted by the Office of the Inspector General (OIG) in
accordance with Government Auditing Standards, issued by the Comptroller General of the
United States. Accordingly, the audit included an evaluation of related policies and procedures,
compliance tests, and other auditing procedures that we considered necessary. The audit
documented the overall security posture of USAJOBS as of April 2012.

We considered the USAJOBS internal control structure in planning our audit procedures. These
procedures were mainly substantive in nature, although we did gain an understanding of
management procedures and controls to the extent necessary to achieve our audit objectives.




                                                 1
To accomplish our objectives, we contracted with an information security professional services
provider, FishNet Security, Inc. (FishNet) to perform a thorough vulnerability assessment and
penetration test of the USAJOBS application and network environment.

Details of the security controls protecting the confidentiality, integrity, and availability of
USAJOBS are located in the “Results” section of this report. Since our audit would not
necessarily disclose all significant matters in the internal control structure, we do not express an
opinion on the USAJOBS system of internal controls taken as a whole.

The audit was conducted from February through April 2012 in OPM’s Washington, D.C. office
and FishNet’s offices in Herndon, Virginia and Salt Lake City, Utah.

                           Reporting and Finding Severity
FishNet provided OPM with detailed reports of its findings that referenced specific server names,
Internet protocol (IP) addresses, web pages, etc. Due to the highly sensitive nature of FishNet’s
reports, they will be kept confidential and will not be incorporated into the OIG reporting
process.

We submitted a draft audit report to the Office of the Chief Information Officer (OCIO) to elicit
their comments on our conclusions. The OCIO provided consolidated comments that included
input from two of its divisions: the USAJOBS Program Office that manages the system and the
Human Resources Tools and Technology (HRTT) division that supports the system’s technical
environment. These comments on the draft report were considered in preparing the final report
and are attached as the Appendix.

The draft audit report contained an attachment with findings and recommendations related to the
specific technical vulnerabilities detected during this audit. Although the attachment does not
have the same level of detail as FishNet’s reports, it does contain sensitive information and
therefore will not be included in this final audit report. Distribution of this document was limited
to the USAJOBS program office, the OCIO, and to OPM’s Internal Oversight and Compliance
Office.

In performing vulnerability assessments and other related work, FishNet’s information security
assessors rated the severity of its findings. In defining its severity ratings, FishNet combines its
own experience from years in the information security professional services industry with widely
adopted information assurance industry standards and methodologies in the application of impact
ratings to discovered vulnerabilities. The three levels of severity (low, medium, high) are
defined below:
•   Low – limited impact; confined to a set of resources;
•   Medium – tangible impact; potential damage to data and resources; and,
•   High – significant impact; probable damage to data and resources.




                                                  2
                   Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether OPM’s management of
USAJOBS is consistent with applicable standards. Nothing came to the OIG’s attention during
this review to indicate that OPM is in violation of relevant laws and regulations.




                                             3
                                             Results
The sections below provide a high-level summary of FishNet Security, Inc.’s (FishNet) security
vulnerability assessment of OPM’s USAJOBS information system. Due to the sensitive nature
of the information, the specific findings and recommendations related to the issues identified
were communicated separately to the OCIO.

Overall Security Assessment Summary

The goal of FishNet’s assessment was to thoroughly document the overall security posture of
USAJOBS through a series of tests, to include:
•   Network architecture review;
•   Internal vulnerability assessment including server and database configuration review;
•   External vulnerability and web application assessment;
•   Source code review; and
•   Mobile application security assessment.

Overall, USAJOBS was found to be in good security standing and does not appear to pose any
significant risk to OPM or its constituents. There were no critical vulnerabilities discovered
during the multi-discipline assessment that required immediate escalation. Additionally, the
large majority of issues found from each assessment phase were of the medium to
low/informational severity ranking. Low-severity rated vulnerabilities comprised nearly half of
the adverse findings.

FishNet detected three vulnerabilities that it believes warrant a high-severity vulnerability rating.
Of these three high-severity vulnerabilities, two dealt with the problem of improper input
validation; one instance on the main USAJOBS website and one on the iOS mobile application.
The other high-severity vulnerability related to parameter-based redirection that could lead a user
to a malicious website. Therefore it could be reasonably said that only two significantly distinct
high-severity vulnerabilities were encountered.

Concerning remediation efforts, the vast majority of issues encountered with USAJOBS are
considered to be of a minimal level of effort (LOE) to correct. The highest LOE vulnerability
was concerned with the overall topology of the USAJOBS application, and in FishNet’s and the
OIG’s opinions, ranks among the most significant findings. While immediate attention should
be paid to the two distinct high-severity vulnerabilities, we believe that OPM should also not
wait to address what appears to be an undesirable shared infrastructure and move to a dedicated,
segregated topology, which cleanly separates the development and production environments.

FishNet and the OIG believe that there is clear intent by OPM to ensure the confidentiality,
integrity, and availability of the USAJOBS environment. Throughout the testing it became
obvious that there were some security weaknesses, but nothing that put the USAJOBS
environment at immediate risk. Many of the findings are similar to those found in other
organizations facing similar operational challenges.

The results of each element of this security assessment are outlined below.


                                                 4
OCIO Response:

“The USAJOBS Program Office and HRTT have identified the following points of
clarification:
    • Low-severity rated vulnerabilities and informational items comprised more than half of
        the adverse findings reported by the independent assessor.
    • The independent assessor stated that the overall security of USAJOBS was sound and a
        credit to the organization’s security assessment and authorization process and the hard
        work of the personnel involved. In addition, the assessor noted that the mobile
        application was designed and implemented as securely as can reasonably be achieved
        on a mobile platform.
    • At the conclusion of the multi-discipline assessment, the USAJOBS environment had
        no security weaknesses that put the system assets, OPM, or the public at immediate
        risk. The identified findings are similar to those found in other organizations facing
        similar operational challenges.”

OIG Reply:

We acknowledge the work that the USAJOBS Program Office and HRTT have done to secure
the USAJOBS system. We would also like to highlight the fact that the Program Office and
HRTT have already remediated many of the specific audit recommendations that were outlined
in the draft report, including all three related to high-severity vulnerabilities.

The OCIO’s comments in response to our draft report (see Appendix) reference the number of
audit recommendations that have been successfully implemented since the draft report was
issued. Please note that the number of recommendations that we list in this report as remaining
open does not exactly match the number referenced by the OCIO in the Appendix. All
discrepancies are the result of either 1) the OIG requesting additional evidence or monitoring
before supporting closure of the recommendation, or 2) the OIG supporting closure of a
recommendation based on the OCIO’s acceptable use of the “risk acceptance” process.

A. Network Architecture

   Throughout the testing of the USAJOBS environment some concerns about the design of the
   supporting infrastructure were realized. The testers discovered that the domain hosting
   USAJOBS is shared with other services and applications hosted by OPM’s Macon data
   center. There were questions about how segregated the application environments actually
   were based on the shared network address among the DMZ, Private, and OPM-MACON
   environments. Further analysis showed the integration of the USAJOBS test and
   development systems within the different environments.

   This lack of segregation lends itself to a higher probability of data leakage, unauthorized
   access to sensitive data, or conflicts of interest between the development team and the
   production environment. It is critical to consider the interconnectivity of the different


                                                5
   application environments and ensure that user, administrative, and role-based access is
   granted based on least privilege and separation of duties.

   USAJOBS is widely considered the flagship information system at OPM. Any application
   with the size, visibility, and public importance of USAJOBS should be operating in a
   dedicated, multi-tiered environment. A multi-tiered environment helps ensure that access to
   the appropriate resource is granted to the appropriate requestor. It seeks to separate the front-
   end, mid-level, and back-end services, thereby creating a defense-in-depth strategy for
   protecting the confidentiality, integrity, and availability of system resources and data.

   In addition to segregating the USAJOBS environment, we recommend that OPM analyze
   what other information systems hosted at the Macon data center warrant segregation, with
   particular attention paid to Employee Express (a large payroll/personnel system used
   throughout the federal government).

   OCIO Response:

   “The USAJOBS web site was designed and deployed as a multi-tiered system to include a
   web service tier (front-end), application tier (mid-level), and database tier (back-end
   services). The tiers are separated across logical networks and segregation is enforced by
   dedicated security service devices (firewalls) with defined network traffic management
   rules.

   A plan has already been developed to further segregate the Macon private network into
   application specific networks for the major hosted applications and will define separate
   development/test environment networks for those applications.”

   OIG Reply:

   We agree that OPM’s network environment has adequate firewall protection from external
   threats. However, the current firewall structure does not adequately protect USAJOBS from
   internal threats. We will continue to monitor the OCIO’s efforts to further segregate the
   USAJOBS environment.

B. Internal Network Assessment

   The internal network assessment was performed using a variety of automated tools and
   manual techniques to determine potential threats to the USAJOBS environment from an
   attacker with access to OPM’s network.

   This review covered a specific subset of USAJOBS servers, databases, and network
   infrastructure. The process consists of the four phases described below:
   •   Mapping and Target Analysis - determined the USAJOBS visibility from the internal
       perspective, both as an unauthenticated user and a fully authenticated administrative user,
       correlated differences between the user types, and identified potential vulnerabilities.



                                                6
       This phase provided insight into both the potential of a successful attack and the
       likelihood that system administrators would detect such an attack.

   •   Vulnerability Measurement and Data Collection - the exploitation of network and system
       vulnerabilities to systematically measure the secure state of the overall environment. The
       vulnerability data was measured and recorded for each system tested while making every
       effort to not cause disruption or interference to the systems being probed.

   •   Data Analysis and Security Design Review - compared test results with operational and
       security policy requirements to identify deficiencies and develop recommendations.

   •   Report and Recommendations - provides OPM with an assessment of the existing
       security posture and actions to be taken to improve any deficiencies.

   FishNet's internal network assessment identified five medium-severity and two low-severity
   vulnerabilities. It is important to note that FishNet categorizes individual findings. For
   example, three systems each having three missing security patches would be documented
   into a single “Missing Patch” finding.

   Many of the findings in this section revolved around the concepts of patching and account
   management. These are on-going challenges for nearly all organizations since the IT systems
   and users that support operations are continuously changing. It is for this reason that these
   areas undergo a high level of scrutiny to ensure that account credentials do not exceed the
   necessary level of access and that account credentials are changed periodically, even for
   service accounts.

   OCIO Response:

   The OCIO provided the OIG with descriptions and evidence of the work it has done to
   implement the audit recommendations related to the internal network assessment.

   OIG Reply:

   We acknowledge that the OCIO has successfully remediated four medium and two low-
   severity findings. Only a single medium-severity finding remains open in this section. The
   OCIO has taken steps to address this recommendation, and we have asked for additional
   evidence before supporting closure of this item.

C. External Network and Web Application Assessment

   The external network and web application assessment was performed using a variety of
   automated tools and manual techniques to determine the potential threat to the USAJOBS
   environment from an external threat perspective. FishNet’s external assessment followed the
   same four-phase approach described in the internal assessment section above.




                                                7
   The external network assessment identified one high-severity, three medium-severity, eight
   low-severity and two informational findings.

   The high-severity vulnerability relates to a USAJOBS parameter which is not validated by
   the application. A malicious user would be able to launch a phishing attack to trick a user to
   follow a crafted URL to a site of their choosing. For example, the malicious site could
   prompt the user to re-enter their USAJOBS username and password and thereby provide the
   user’s credentials to the attacker.

   One medium-severity vulnerability relates to several web pages on the webadmin site that do
   not validate a user’s role. This permits a user to execute application logic that is beyond their
   role to execute. USAJOBS also utilizes a third party survey service whose administration
   pages are not appropriately secured. Two session cookies were also identified which do not
   set the secure flag. Not setting the secure flag permits the session cookie to be transmitted to
   unencrypted portions of the site over the Internet.

   Several low-severity findings relate to an attacker’s ability to enumerate valid user accounts
   and session cookies not being bound to a user’s IP address.

   OCIO Response:

   The OCIO provided the OIG with descriptions and evidence of the work it has done to
   implement the audit recommendations related to the external network and web application
   assessment.

   OIG Reply:

   We acknowledge that the OCIO has successfully remediated one high, one medium, and four
   low-severity findings. Two medium and four low-severity findings remain open in this
   section. These open items are either prioritized for upcoming releases of USAJOBS or
   pending a program office decision of remediation or risk acceptance.

D. Source Code Review

   The source code review was conducted by a manual review of the USAJOBS code base and
   by using IBM’s AppScan Source Edition, a leading commercial static code analysis tool.
   FishNet manually reviewed all AppScan Source Edition results to validate findings and
   eliminate false positives.

   During the source code review, FishNet identified one high-severity, three medium-severity,
   and three low-severity vulnerabilities.

   The high-severity vulnerability relates to a systemic lack of input validation and output
   encoding, including two pages vulnerable to a cross-site scripting (XSS) attack. Exploitation
   of this vulnerability would require the attacker to send USAJOBS users a phishing email
   containing a link with the malicious code attached.



                                                8
   The medium-severity findings are comprised of the ability to lockout a user account through
   the forgot-password functionality, and internal credentials being stored insecurely. These
   issues may expose USAJOBS and its users to other types of attacks but do not result in direct
   compromise.

   The low-severity findings include the disclosure of sensitive information, insufficient
   randomization generating some encryption tokens, and some pages including unnecessary
   HTML comments.

   OCIO Response:

   The OCIO provided the OIG with descriptions and evidence of the work it has done to
   implement the audit recommendations related to the source code review.

   OIG Reply:

   We acknowledge that the OCIO has successfully remediated all but one medium and one
   low-severity finding in this section. Of these two remaining findings, one is prioritized for
   an upcoming release of USAJOBS and the other is pending a program office decision of
   remediation or risk acceptance.

E. Mobile Application Assessment

   The mobile application security assessment of the USAJOBS iOS application was focused on
   identifying potential security vulnerabilities that, if unresolved, might undermine the security
   of the USAJOBS system. FishNet assessed the USAJOBS iOS application using both an
   unauthenticated (i.e., “external hacker”) scenario as well as an authenticated (i.e., “malicious
   user”) scenario.

   The mobile assessment identified one high-severity, two medium-severity and three low-
   severity vulnerabilities.

   The high-severity issue identified relates to a lack of input validation or output encoding on
   user input before it is passed back to the backend web service. This is the same high-
   severity issue identified on the main USAJOBS application during the source code review.
   This vulnerability, also known as XML Injection, may be used by an attacker to further
   escalate their attempts at subverting any protections built into the application. At a
   minimum, it causes multiple requests to be made to the backend web service and interrupts
   the flow of the application.

   The medium-severity vulnerabilities relate to the exposure of configuration information for
   the backend web services and the ability for attackers to guess valid usernames using the
   USAJOBS iOS backend web service through the error messages returned due to account
   lockout. All medium-severity issues should be reviewed in terms of user experience to
   determine if the sensitivity of the information requires additional protections to be used.



                                                9
The low-severity vulnerabilities are weaknesses within the application that may give an
attacker a foothold to limited amounts of user or architectural information. None currently
allow the compromise of the USAJOBS iOS application, but may help an attacker in
targeting application users. These vulnerabilities include the exposure of application
usernames to attackers with physical access to the iOS device, the lack of an automatic
session timeout, and the exposure of platform information on backend web service requests.

OCIO Response:

The OCIO provided the OIG with descriptions and evidence of the work it has done to
implement the audit recommendations related to the mobile application assessment.

OIG Reply:

We acknowledge that the OCIO has successfully remediated all but one low-severity finding
in this section. Remediation of this last finding is pending a program office decision of
remediation or risk acceptance.




                                           10
                       Major Contributors to this Report
This audit report was prepared by the U.S. Office of Personnel Management, Office of Inspector
General, Information Systems Audits Group. The following individuals participated in the audit
and the preparation of this report:

•                  , Group Chief
•                    , Senior Team Leader




                                              11
                                           Appendix

MEMORANDUM FOR:
                               Chief, Information Systems Audits Group

FROM:                          MATTHEW E. PERRY
                               Chief Information Officer
                               USAJOBS 3.0 Authorizing Official

SUBJECT:                       Response to Draft Report:
                               Audit of the Information Security Posture of the U.S. Office of
                               Personnel Management’s USAJOBS System (Report No. 4A-HR-
                               00-12-037)

The Office of Personnel Management (OPM) USAJOBS Program Office and Human Resource
Tools and Technology (HRTT) division acknowledge and appreciate the work of the Office of
Inspector General (OIG) and the independent assessor to identify potential information security
risks and opportunities to improve the security posture of the USAJOBS information system.
This memo serves as official response to the draft report content.

Overall Security Assessment Summary
The USAJOBS Program Office and HRTT have identified the following points of clarification:
   • Low-severity rated vulnerabilities and informational items comprised more than half of
       the adverse findings reported by the independent assessor.
   • The independent assessor stated that the overall security of USAJOBS was sound and a
       credit to the organization’s security assessment and authorization process and the hard
       work of the personnel involved. In addition, the assessor noted that the mobile
       application was designed and implemented as securely as can reasonably be achieved on
       a mobile platform.
   • At the conclusion of the multi-discipline assessment, the USAJOBS environment had no
       security weaknesses that put the system assets, OPM, or the public at immediate risk.
       The identified findings are similar to those found in other organizations facing similar
       operational challenges.

Network Architecture
The USAJOBS web site was designed and deployed as a multi-tiered system to include a web
service tier (front-end), application tier (mid-level), and database tier (back-end services). The
tiers are separated across logical networks and segregation is enforced by dedicated security
service devices (firewalls) with defined network traffic management rules.




                                                 1
A plan has already been developed to further segregate the Macon private network into
application specific networks for the major hosted applications and will define separate
development/test environment networks for those applications.

Internal Network Assessment
The current remediation status of documented findings is as follows:
    • Four (4) recommendations have been implemented to remediate findings. Corresponding
        evidence has been provided to the OIG.
    • One (1) recommendation is related to a previously identified and mitigated issue
        regarding patching of embedded non-Microsoft third party software. Evidence of
        mitigation has been provided to the OIG.
    • Two (2) recommendations require further analysis to determine the feasibility of full
        implementation.

HRTT patches non-Microsoft software products within the USAJOBS system unless doing so
would severely compromise system performance and availability. When patching cannot be
achieved due to technical constraints, compensating controls are deployed to mitigate risk. It is
more accurate to state that formal patch management policy and standard operating procedures
should be expanded to include patching and updating non-Microsoft technologies supporting
USAJOBS.

External Network and Web Application Assessment
The current remediation status of documented findings is as follows:
   • Five (5) recommendations have been implemented to remediate findings. Corresponding
       evidence has been provided to the OIG.
   • Five (5) recommendations are partially implemented or planned for a future release.
   • Two (2) recommendations require further analysis to determine the feasibility of full
       implementation.
   • Duplicate recommendations from other sections of the report have been noted.

Source Code Review
The current remediation status of documented findings is as follows:
   • Five (5) recommendations have been implemented to remediate findings. Corresponding
       evidence has been provided to the OIG.
   • One (1) recommendation is planned for a future release.
   • One (1) recommendation requires further analysis to determine the feasibility of full
       implementation.

Mobile Application Assessment
The current remediation status of documented findings is as follows:
   • Three (3) recommendations are planned for a future release.
   • Three (3) recommendations require further analysis to determine the feasibility of full
       implementation.
   • Duplicate recommendations from other sections of the report have been noted.


                                      FOR OFFICIAL USE ONLY
